<html>
<title> - TIMELESS HONOR: REVIEWING CURRENT OPERATIONS OF OUR NATIONAL CEMETERIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



TIMELESS HONOR: REVIEWING CURRENT OPERATIONS OF OUR NATIONAL CEMETERIES

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, DECEMBER 9, 2014

                               __________

                           Serial No. 113-95

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               __________

                U.S. GOVERNMENT PUBLISHING OFFICE

96-138                   WASHINGTON : 2015
   __________________________________________________________________________

  For sale by the Superintendent of Documents, U.S. Government Publishing Office
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202)512-1800
         Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001
     
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking Member
GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas
MARK AMODEI, Nevada                  RAUL RUIZ, California
PAUL COOK, California                GLORIA NEGRETE McLEOD, California
DAVID JOLLY, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                              ----------                              

                       Tuesday, December 9, 2014

                                                                   Page

Timeless Honor: Reviewing Current Operations of Our National 
  Cemeteries.....................................................     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman........................................     1
Hon. Dina Titus, Ranking Member..................................     3

                               WITNESSES

Mr. Ronald E. Walters, Acting Under Secretary for Memorial 
  Affairs, National Cemetery Administration, U.S. Department of 
  Veterans Affairs...............................................     5
    Prepared Statement...........................................    31

    Accompanied By:

        Mr. Glenn Powers, Deputy Under Secretary for Field 
            Programs, National Cemetery Administration, U.S. 
            Department of Veterans Affairs
Mr. Patrick K. Hallinan, Executive Director, Army National 
  Military Cemeteries, Department of the Army....................     6
    Prepared Statement...........................................    42

Hon. Max Cleland, Secretary, American Battle Monuments Commission     8
    Prepared Statement...........................................    56

Ms. Ami Neiberger-Miller, Director of Outreach and Education, 
  Tragedy Assistance Program for Survivors.......................    22
    Prepared Statement...........................................    60

Ms. Diane M. Zumatto, National Legislative Director, AMVETS......    24
    Prepared Statement...........................................    72


 
TIMELESS HONOR: REVIEWING CURRENT OPERATIONS OF OUR NATIONAL CEMETERIES

                              ----------                              


                       Tuesday, December 9, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[chairman of the subcommittee] presiding.
    Present: Representatives Runyan, Lamborn, Bilirakis, Titus, 
and O'Rourke.
    Also present: Representative Stivers.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon everyone. This oversight hearing 
of the Subcommittee on Disability Assistance and Memorial 
Affairs will now come to order.
    We are here today to examine the issues facing our military 
veterans cemeteries. Our goal in this hearing is to learn more 
about the operations of the National Cemetery Administration, 
Arlington National Cemetery and the American Battle Monuments 
Commission over the past year. As well as seek the organization 
commentary on several focused issues that I will be 
highlighting momentarily.
    I would also like to welcome Mr. Walters as he has stepped 
up to perform duties as Acting Under Secretary of Memorial 
Affairs after the retirement of Under Secretary Muro and we 
look forward to hearing about his vision for overseeing the 
honorable mission at NCA.
    Mr. Hallinan, Secretary Cleland, it is also nice to have 
you here as well.
    The endeavors of these entities are among the most 
honorable in government and the people with these organizations 
work day in and day out to honor veterans and servicemembers 
with dignified burials, and to assist families and loved ones 
who must deal with a loss and tremendous grief.
    As I said before, our Nation's solemn obligation to honor 
those who have served does not cease at the end of their 
service, or retirement, or ultimately upon their death, and it 
is the responsibility of these organizations to see this 
commitment through.
    I would like to take a moment to note that today will be my 
last hearing as subcommittee chair and that I am extremely 
pleased that today's focus is upon the tremendous work of these 
organizations. Your commitment to the timeless honor of our 
Nation's veterans and the compassionate missions of NCA, 
Arlington National Cemetery and ABMC.
    I have been proud to work with all of you over the recent 
years, and I trust that you will continue to go above and 
beyond the care for our Nation and our national and our 
international shrines.
    With that said, today the committee is interested in 
hearing from the National Cemetery Administration on several 
focused areas, including continued efforts to provide burial 
access initiatives for rural veterans, those planned for urban 
areas in other future outlets for burial options.
    We will also hear about new regulation which was aimed to 
address an issue which was discussed at a previous hearing 
regarding requests for headstones and markers made by those 
other than next of kin.
    I also look forward to hearing updates on Arlington 
National Cemetery and I note for the record Mr. Hallinan has 
done a tremendous job at ANC and we certainly want to make sure 
that the standards he and his predecessor Ms. Condon that put 
into place are carried forward. And I thank you Mr. Hallinan 
for your truly tireless commitment and your evident passion for 
the mission that you serve.
    Additionally, I understand that 2014 is a significant 
commemorative year for the Nation for the American Battle 
Monuments Commission. We will be hearing updates on the far 
reaching operations of ABMC which operates in 16 foreign 
countries and many other locations.
    Secretary Cleland, thank you for your service, for your 
continued service, and for being here today. ABMC is a 
remarkable organization and we appreciate hearing from you.
    Now, I formally welcome our witness. As noted, these 
panelists play significant roles in ensuring that we as a 
Nation fulfill our responsibilities to honor those who have 
served all of us. We hope that through discussion and questions 
such as what will occur today we work collectively not only to 
meet the challenges, but always to exceed the standard.
    First, Mr. Ronald Walters, Acting Secretary for Memorial 
Affairs is here on behalf of National Cemetery Administration 
which oversees 131 cemeteries nationwide. Mr. Walters is 
accompanied by Mr. Glenn Powers Deputy Under Secretary for 
field programs.
    Next, we will have Mr. Patrick Hallinan, Executive Director 
of Army National Military Centers will also testified on panel 
1. In his role Mr. Hallinan is charged of overseeing Arlington 
National Cemetery.
    And finally, Secretary Max Cleland, the American Battle 
Monument Commission is with us today. Secretary Cleland will 
offer an update on ABMC's mission plan and recent 
commemorations.
    We will also be hearing from a second panel including Ms. 
Ami Neiberger-Miller who is the Director of Outreach and 
Education for Tragedy Assistance Program for Survivors. And Ms. 
Diane Zumatto, the National Legislative Director for AMVETS.
    With those introductions complete, I also thank the member 
who is not on this committee, but who has expressed an interest 
in this hearing topic. I would like to ask unanimous consent 
that Representative Stivers, who is not here yet, be allowed to 
participate in this hearing.
    Hearing no objection, so ordered.
    Thank you all for being with us today and I now yield to 
the ranking member for her opening statements.
    [The prepared statement of Jon Runyan appears in the 
Appendix]

         OPENING STATEMENT OF RANKING MEMBER DINA TITUS

    Ms. Titus. Well, thank you Mr. Chairman and thank you for 
holding this hearing.
    I guess this is our grand finale, I suspect this will be 
the last time that our subcommittee meets during this session. 
And I want to thank you for your leadership and tell you what a 
pleasure it has been to work with you and your staff on this 
committee. I think veterans have been well served by your 
bipartisan, fair and compassionate approach to these issues. 
So, yes----
    Mr. Runyan. I want to thank you for that also because it is 
a two-way street. Thank you for your commitment and your 
passion.
    Ms. Titus. Well, thank you. I also want to thank the 
witnesses for being here. It is a special treat to see 
Secretary Cleland, a long time friend from Georgia, so welcome 
to all of you. I know that you share our feelings that a proper 
burial for our Nation's veterans and their families is a solemn 
obligation that we need to uphold.
    The National Cemetery Administration has grown dramatically 
since its creation in 1862 and only 14 cemeteries were created 
to serve as resting places for our veterans after the war 
between the States.
    The administration has also expanded its geographic 
diversity to better serve veterans across the country. I know 
recent legislation added to your ability to do that.
    There are now 131 national cemeteries New York has seven, 
three other states have six and Puerto Rico has two. So your 
access has grown considerably, but that brings me to my point, 
there is still a problem where some of our veterans do not have 
the ability to be buried in national cemeteries that are close 
to home and accessible for their families.
    This is especially true in the west. And the state with the 
largest veterans population that is not served by a national 
cemetery continues to be Nevada, which is the home to over 
230,000 veterans, 153,000 of whom live in the Las Vegas area.
    So in total, there are 11 States with the combined veteran 
population of 1.8 million who do not have an active national 
cemetery. And because most of those states are in the west, 
that is a lot of square miles that is covered that doesn't have 
that access.
    Many of largest cities in the west like Las Vegas exceed 
the NCA's eligibility requirements of 80,000 veterans, they 
don't have a national cemetery. Now, you have responded by 
proposing placement of national columbaria in cities that are 
already served by a national cemetery to give access to urban 
areas. These urban initiatives are great, but you propose them 
for Los Angeles, which already has two national cemeteries, and 
New York that is served by three.
    This is good, but it is really a matter of convenience, not 
a matter of necessity. Those cities may not have perfect 
access, but they are certainly in a lot better shape than a 
veteran in Las Vegas who has got to travel four hours to 
California in Bakersfield to get to a national cemetery. In 
Salt Lake City, you have to travel eight hours for a burial and 
the closest national cemetery in Denver. So before you place 
more of these facilities of convenience, I would like for us to 
look a little closer at cities that exceed the 80,000 member 
requirement and see if we might not want to put some facilities 
there.
    So I look forward to hearing your plans for how to address 
that issue because as long as I am here, I am not going to let 
it go. I am going to keep bringing it up and appreciate working 
with you on it.
    A couple of other specific issues I hope that we can 
address. One is that last March I sent a letter to then-
Secretary Shinseki commending him for allowing same-sex burials 
of couples in national cemeteries. We need a policy on that. 
Right now it is rather capricious, it is case by case. And even 
if it works for a national cemetery, the state cemeteries have 
different policies and that doesn't seem to be fair to me to 
our veterans and their families.
    And finally something that has just recently come to my 
attention, is that veterans who serve in the Armed Services are 
at a disadvantage in another way. If you are the spouse of a 
veteran and you pass away, you can be buried in a veteran 
cemetery even if the veteran is still alive so that family 
members will be able to stay together.
    Unfortunately, current law prohibits the VA from burying a 
family member of an active duty serviceman who passes away 
while in the service. So I think that is something that we also 
need to look at and work on legislation to correct, because 
some of these things only make it fair for veterans and their 
families,--all veterans and their families. And dealing with 
them one way in national cemeteries, another in state, and on a 
case-by-case basis. Let's work together to create a policy.
    So I look forward to hearing all of your testimony and 
especially also from the Battle Monuments Commission to how 
certain cut backs and resources will effect the service that 
you provide.
    Thank you, Mr. Chairman.

    [The prepared statement of Ms. Titus appears in the 
Appendix]

    Mr. Runyan. I thank the gentlelady.
    I advise the witnesses that your complete and written 
statements will be entered into the hearing record.
    And we are going to move on to our first witness. From the 
NCAA--NCA football on the mind for some reason.
    Mr. Walters, you are now recognized for 5 minutes for your 
testimony.

  STATEMENTS OF RONALD E. WALTERS, ACTING UNDER SECRETARY FOR 
   MEMORIAL AFFAIRS, NATIONAL CEMETERY ADMINISTRATION, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY GLEN POWERS, 
 DEPUTY UNDER SECRETARY FOR FIELD PROGRAMS, NATIONAL CEMETERY 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF RONALD E. WALTERS

    Mr. Walters. Chairman Runyan, Ranking Member Titus and 
distinguished members of the subcommittee. Thank you for the 
opportunity to provide a review the National Cemetery 
Administration's operations and our plans for continuing to 
meet the needs of veterans and their families.
    I am accompanied today by Glenn Powers, Deputy Under 
Secretary for Field Programs. I would also like to acknowledge 
our partners from the Army National Military Cemeteries and the 
American Battle Monuments Commission. Our shared commitment to 
honor and memorialize our Nation's veterans is strengthened 
through our continued partnership.
    Mr. Chairman, under Secretary McDonald's leadership, the 
department recently launched MyVA, an ambitious effort to 
organize the department into one that is centered around our 
customer, the veteran. It is this is focus that has defined and 
will continue to define NCA into the future.
    Consistent with the MyVA effort, NCA measures success 
against the ultimate outcome for the veteran. Direct feedback 
from our customers lets us know if we are achieving those 
outcomes 2014. As reported in 2014 for the fifth consecutive 
time, NCA achieved the highest score ever recorded for a public 
or private organization on the American customer satisfaction 
index.
    Thanks to our employees, NCA's score of 96 was 28 points 
above the 68 point average for Federal Government agencies. Our 
employees are NCA's best assets and we value their feedback.
    This year I am pleased to report that NCA increased its 
participation rate in VA's all employee survey by 10 percent. 
NCA employee engagement, along with other VA employees is 
invaluable to the successful design of MyVA. This is especially 
true of NCA's workforce, 74 percent of which are veterans, the 
highest percentage in the Federal Government.
    Our employees are also more than willing to reach out to 
those in need of a second chance. I am pleased to report that 
we continue our efforts to end veteran homelessness.
    Two years ago, NCA established a cemetery caretaker 
apprenticeship program, designed to help homeless veterans. Our 
second class of apprentices just completed their training on 
December 5th. Since the program's inception, 32 formerly 
homeless veterans are now employed full time at NCA. Our third 
class of apprentices will convene this spring. Thanks to the 
dedication of our entire workforce, NCA successfully met 
increasing workload requirements in 2014.
    Through our operation and maintenance program we maintained 
over 3.4 million grave sites, performed over 125,000 
interments, issued over 600,000 presidential memorial 
certificates, provided over 360,000 headstones, markers and 
medallions, and awarded $28.8 million to repair grave sites.
    In addition, due to our careful planning and management of 
construction, and grant funds, no interruptions in burial 
services occurred at any national or state veteran cemetery. We 
continue to make progress on implementing new burial access 
policies previously approved by Congress.
    NCA plans to eventually open 18 new cemeteries, which will 
provide new or enhanced access to burial options for over 2 
million veterans. The new facilities include five new national 
cemeteries, two in Florida, which will open this year, and one 
each in Colorado, Nebraska and New York, as well as a national 
cemetery presence in eight highly rural and five urban 
locations.
    We strive to better serve veterans and their families in 
the future. NCA recently received the results of an independent 
study on emerging burial practices that addresses green burials 
and additional ways to memorialize veterans. We will be happy 
to brief the committee on the study in greater detail after we 
have completed our review.
    NCA is planning to expand the use of GIS GPS technology at 
our national cemeteries to enhance overall grave site 
accountability. This technology will provide state of the art 
mapping, grave site and headstone information and will serve as 
the basis for our ongoing grave site accountability efforts.
    Finally, we intend to explore how to best share the rich 
history of our national cemeteries and the stories of our 
Nation's heroes with the public through a variety of 
approaches.
    Mr. Chairman, we look forward to our continued work with 
this committee to care for those who shall have borne the 
battle, and we are greatly appreciative of your leadership and 
all of you have done four our Nation's veterans.
    Thank you again for this opportunity to be here today, and 
I would be pleased to answer any questions that you may have.

    [The prepared statement of Mr. Ronald Walters appears in 
the Appendix]

    Mr. Runyan. Thank you, Mr. Walters.
    And with that we will now hear from Mr. Hallinan for his 
testimony. So, you are recognized for 5 minutes.

                STATEMENT OF PATRICK K. HALLINAN

    Mr. Hallinan. Chairman Runyan, Ranking Member Titus, 
distinguished members of the subcommittee, thank you for the 
opportunity to provide an update on operations at Arlington 
National Cemetery. Since my testimony to this subcommittee a 
year ago, we continue to build upon our tremendous progress. We 
are setting industry standards for best practices becoming a 
center of excellence while working closely with our partner 
organizations that I am honored to testify with today.
    I am proud to say that Arlington has one of the most 
stringent accountability processes of any national cemetery. We 
have leverage, cutting edge technology to develop an integrated 
solution that uses digital record of interment system with 
read, write, Web site capabilities to provide real time mapping 
updates and a common operational picture of activities at the 
cemetery.
    Our interment service system performs systematic backups, 
redundant identification and burial location checks, it 
provides access to all digitized burial records, it stores 
photographs of the caskets and the urns, and each electronic 
interment record. It has a headstone design in ordering 
functionality. And most of all, it enforces the strictest chain 
of custody of any Federal cemetery.
    The ANC mapping system tracks grave site availability, 
field operational status, deconflicts funeral procession 
routes, while also containing grave site and headstone GPS 
locations, which are accurate to within three centimeters.
    These systems in concert ensure accountability, and 
efficiency, and operations at Arlington Cemetery. To keep up 
with the ever-increasing pace of requests for burial at 
Arlington, we have hired additional schedulers to reduce wait 
times. And we continue to make every effort to ensure our 
employees are trained to the highest standards when dealing 
with families, and the public, treating each with respect and 
sensitivity.
    As we look to improve the appearance and operations within 
the cemetery, we are working on several projects. In October, 
we began the renovation of our welcome center restrooms to 
improve our visitors' experience. We are currently renovating 
the basement of the welcome center to provide work spaces for 
our staff.
    Another one of our goals for fiscal year 2015 is to 
redesign and improve the manner in which we gather and escort 
funeral processions. We are designing a new funeral procession 
queuing area for family vehicles which will make our funeral 
lineup much more intuitive and easier to negotiate.
    I am also pleased to inform the subcommittee of planning 
and design efforts that are well underway with the 
establishment of an ossuary, called the Tomb of Remembrance. 
This project will allow us to provide the Nation with a 
dignified place to provide final disposition of cremated 
remains which may be commingled or unidentified.
    In May 2014, we refurbished the display room of the 
Memorial Amphitheater with new exhibits which included museum-
quality cases to properly protect items gifted to the Tomb of 
the Unknown Soldier.
    We have recently completed an Americans with Disability Act 
accessibility study that will help us program and execute 
projects to ensure that our national shrine is as accessible as 
possible for all those who wish to visit.
    We are actively designing projects which will improve ADA 
access throughout the cemetery. The cemetery staff also 
continued to make progress repairing, replacing much of our 
dated utility infrastructure. In 2011, we identified 
approximately $74 million in deferred maintenance. To date we 
have spent $40 million for improvements to the water lines, the 
roads, the building and the HVAC systems.
    We are committed to maintaining Arlington as an active 
cemetery for as long as possible for our Nation's military 
heroes. The Millennium Project is currently within budget and 
on schedule, to be completed in summer of 2016. This will 
provide the cemetery with an additional 27,282 burial spaces 
for both caskets and interments.
    Arlington has begun the planning and design of southern 
expansion project. Once completed, both projects are expected 
to extend Arlington's operational longevity through the 2050s.
    Mr. Chairman, as this is your last year on the 
subcommittee, I personally thank you for your leadership and 
dedicated support of Arlington during your tenure. I commit 
that through diligent efforts, established procedures, 
repeatable processes and better technologies and 
institutionalized standards, Arlington will sustain and 
maintain the trust it has reclaimed.
    We can ensure the Nation of this, every burial service at 
Arlington National Cemetery will continue to be conducted with 
the honor and dignity our serving members have earned, and 
their families will be treated with compassion and respect.
    Thank you, and I look forward to answering any questions 
you may have.

    [The prepared statement of Mr. Patrick Hallinan appears in 
the Appendix]

    Mr. Runyan. Thank you, Mr. Hallinan.
    With that, I recognize Secretary Cleland for his testimony.

                 STATEMENT OF HON. MAX CLELAND

    Mr. Cleland. Thank you, Mr. Chairman.
    May I say it is an honor to be with you again, Mr. Chairman 
and members of the committee.
    We will miss you, Mr. Chairman. We will miss talking 
football, we will miss talking our mission and we will miss as 
Ms. Titus said, your fair evenhandled approach to these issues 
in a bipartisan way. That is rare in this town and I for one 
really appreciate it. We will miss you.
    Secondly, I wanted to be here with the people at this 
table, over the last few years I have really gotten to know 
them, and I can tell you Patrick Hallinan has been doing a 
great job out here. Now he is the tip of the spear. He is the 
guy leading the pack out there. I was asked by the Secretary of 
the Army about 4 years ago to head up an advisory committee on 
the Arlington National Cemetery. They have come light years in 
4 years, I can tell you that.
    Four years ago, they were operating off of 3 by 5 cards, 
now they have got good technology that could launch a 
satellite. I mean, it is quite amazing the transformation that 
they have put together out there.
    The Veterans Administration, Mr. Chairman, I used to head 
and--many many years ago--and we are working very, very closely 
with the VA. I met with Secretary McDonald and we are in 
agreement, particularly on some sensitive issues regarding the 
Punchbowl Cemetery in Hawaii and visitor center experience 
there and we are working closely with all of the people at the 
table.
    I might say, in terms of Arlington that the American Battle 
Monuments Commission has put no charge to Arlington, a charge 
to us, the American Battle Monuments Commission, a liaison 
officer there on site and he is doing a great job. He has been 
17 years in western Europe and he is an added benefit I think 
for Arlington.
    One of our staff members, Tom Sole, is on the advisory 
council for cemeteries that works at the VA, that meets at the 
VA, his name is Tom Sole.
    I have with me today people who have labored in the 
vineyard of the American Battle Monuments Commission a long 
time. Chris Philpot, our chief financial officer and Mike 
Conley, our administrative officer, we are just honored to be 
with him today.
    I would say, Mr. Chairman, basically that last night I saw 
the movie based on the Laura Hillenbrand book Unbroken. And it 
was a powerful testimony of one man's incredible endurance in 
World War II, Louis Zamperini, unbelievable, an unbelievable 
story. But the amazing thing about it is when you think he was 
one of the 16 million men and women caught up in World War II 
that occurred on what six of the seven continents, it was 
worldwide, worldwide conflagration. That expanded the work of 
the American Battle Monuments Commission.
    We now have 125,000 servicemembers buried in at least 14 
different Nations. We have 95,000 names of the missing from 
World War I and World War II on our Tablets of the Missing. You 
see a movie like Unbroken and you just realize wow, why you are 
in this business, General Pershing said and we like to quote at 
the American Battle Monuments Commission, ``the time will not 
dim the glory of their deeds.''
    Mr. Chairman, I will be glad to answer any questions. The 
one issue that the Congress gave the American Battle Monuments 
Commission was Clark Cemetery. En route to Vietnam in 1967, I 
went by the old Clark Air Base en route to Vietnam, it is now 
closed. The Philippine Government asked the American military 
to leave a number of years ago. That left Clark air field base 
cemetery, which had been around almost 100 years with about 
8,000 interments, men, women, children dependents, unattended.
    And so, the Congress gave that mission to the American 
Battle Monuments Commission. We have taken that mission 
seriously, we are in it with both feet. We are doing an 
assessment of what it will take to bring that cemetery up to 
respectable standards. It is not going to be the Arlington of 
the Pacific. It is not going to be one of our topnotch 
cemeteries, but we will maintain it with dignity, but that is 
going to cost some money. So we will be coming back to you in a 
couple of years for that. Now we are on that case and burials 
have begun again.
    Thank you, Mr. Chairman.

    [The prepared statement of Hon. Max Cleland appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Secretary. I know that was one 
of the issues that was in the forefront when I first took this 
position.
    With that we will start a round of questioning and this 
question is really for the whole panel, the collective 
expertise at the NCA, Army National Cemeteries, and ABMC is 
unique and frankly I want to say impressive. And each 
organization must meet strict standards to properly honor those 
who served the Nation.
    Mr. Hallinan touched on the topic of information sharing 
and best practices and the secretary also touched on that. And 
I would like to think that is tremendously valuable and should 
be encouraged.
    How do each of your organizations share the information and 
innovation? And how did that relationship of collaboration 
begin?
    Start with Mr. Walters.
    Mr. Walters. Thank you, Mr. Chairman.
    Well, we obviously work very, very closely with Army and 
the American Battle Monuments Commission in our shared mission 
to serve veterans. For starters, both organizations have a 
representative on our advisory committee on NCA's advisory 
committee and their input on that committee, which ranges over 
a variety of issues, we have found extremely helpful over the 
years.
    With Army, we have also established a board that meets two 
times a year to discuss areas of mutual interest and to share 
best practices. For example, Mr. Hallinan mentioned the use of 
GIS, GPS technology. It is something that the National Cemetery 
Administration is beginning to use. And we can certainly learn 
best practices from Arlington's success in that regard. I would 
also submit that there are many things that NCA has shared with 
Arlington that has worked equally well in their favor.
    With ABMC, we are currently working on a project to 
construct an interpretive center at the Punchbowl in Hawaii. In 
fact, Mr. Powers was recently at the Punchbowl to check on the 
progress of that. So we have many collaborative efforts with 
ABMC as well to share in the historical aspects of our Nation's 
veterans at our cemetery grounds.
    Mr. Runyan. Mr. Hallinan, anything to add?
    Mr. Hallinan. Mr. Chairman, in the direct answer to the 
question how did it all begin the efforts towards communication 
and collaboration. I formerly worked with Mr. Ron Walters and 
the former-Under Secretary, Steve Muro for 33 years with NCA.
    When I came over to Arlington in 2010 during difficult and 
challenging times, one of the first things I did was create a 
written memorandum of agreement between both agencies, that the 
Secretary of the Army approved. So we took advantage of 
training that was ongoing, standards and measures that had been 
put in place, based on those 30 something, 33 years, decades 
worth of experience. So that relationship was there. And we 
just strengthened that relationship and continued to share over 
the last couple of years.
    My relationship with ABMC, the former-Senator of Cleland is 
a member of our advisory committee. He was also my old boss 
when I worked at the VA so we have known each other for many 
years, both professionally and as veterans. So the relationship 
professionally and personally was there. We reached out and 
signed a written MOU with ABMC and set up meetings where we can 
share some of these best practices that the committee is aware 
of what we have done with technology, what we have done with 
standard operating procedures, what we have done to train our 
staff for sensitivity when dealing with families.
    So the communications are in place, the mechanisms are in 
place, the vehicles are there, we are working together. As Mr. 
Cleland pointed out, he is assigned to a permanent liaison 
because that is part of my staff that sits right outside my 
office, actively engaged, proactively engaged looking at what 
we are doing with technology, at the same time sharing their 
wealth of experience on teaching the history of those who have 
worn the uniform.
    So across the board here at this table and going forward 
into the future, excellent working relationship that has been 
documented that is in place, even when we are gone.
    Thank you.
    Mr. Runyan. Secretary Cleland, do you have anything to add?
    Ms. Cleland. Mr. Chairman, thank you very much.
    Actually, the corporation between these agencies is one of 
the things I am most proud of. Hadn't always been that way. As 
you well know, it is unusual for a government agency to work 
with another government agency because budgets and policies 
usually stovepiped and everything is lined up to where you are 
accountable to your Congressional counterparts and oversight 
people, and you don't really talk to your colleagues, even 
though they are in the same business.
    We are in the same business all of us. We are in the 
business of honoring those who have served, particularly when 
they get killed in action and particularly when they die, and 
looking after their families. So that is the business we are 
in.
    I made sure that Patrick Hallinan and his associate Renea 
Yates came over to the 70th anniversary of the Normandy 
invasion. We were there, all of us. They were with the 
commission, with the President of the United States and then on 
that June 6th of this year.
    Then the next day they went back for a professional tour to 
look at the cemetery at Normandy, and especially the 
interpretive center that we have there that we think is world 
class. Arlington is now looking at that kind of thing 
themselves. So there is a massive change back and forth. Our 
computer people, our IT people have shared information for a 
number of years.
    In terms of the VA, like I mentioned, I met with Secretary 
McDonald. We have memorial where the VA has cemeteries, it is 
unique. But there in the Punchbowl cemetery--I was just out 
there Veterans Day, the VA has been out there the last few 
days, so we are working closely with them on that unique 
opportunity to work together to magnify the interpretive 
experience and make sure that the experience at the Punchbowl 
is something that future generations can grasp.
    So I am proud to work with these folks and they are the 
best in the business as far as I can tell.
    Mr. Runyan. Thank you for that.
    My time has expired, but I just want to say one thing, 
because I think what you all do is unique and that there is a 
personal relationship there with a lot of good professional 
structure around it. And I just wanted to highlight that point.
    So with that I will yield to the ranking member.
    Ms. Titus. Thank you.
    Mr. Walters, I would like to talk to you about that urban 
initiative program and ask you maybe you can explain the 
justification of why you don't include urban areas that have 
people who have a difficulty getting to State cemeteries, if 
they don't have a Federal cemetery. Like in Las Vegas, you have 
to go out to Boulder City. If you take public transit that 
takes you 2 hours and you still have to walk 6 miles. So there 
are any little widows who can make that trip. So why wouldn't 
those kind of urban areas be considered for this initiative?
    Mr. Walters. The purpose of the urban initiative, at least 
as it is defined now, is to provide ancillary service to 
existing national cemeteries where we have data that shows that 
there are problems with time and distance barriers at those 
locations.
    We have five very specific criteria against which we 
evaluate a potential location for the placement of a 
columbaria-only cemetery. And again, it is designed to 
supplement the national cemeteries and to address gaps in 
service that our customers are telling us through formal 
surveys and other means and other feedback.
    Ms. Titus. But would it make sense to expanding that to 
also include access to the state cemetery when there is no 
national cemetery?
    Mr. Walters. Well, I think certainly it makes sense to 
begin to engage those who use state cemeteries and bury loved 
ones in state cemeteries similar to the way we are doing with 
national cemeteries. I think from that point on we could then 
examine whether or not it is most appropriate for the VA to 
step in to provide those columbaria-only facilities or if we 
can work with the states to either provide them or perhaps to 
have is a better rationale for the placement of the cemeteries 
to begin with at the state level.
    Ms. Titus. Do you think there is something in the funding 
formula that that discriminates against location of these 
cemeteries in the west that could be addressed?
    Mr. Walters. In the state grant funding formula?
    Ms. Titus. No, or in the location of a National cemetery 
funding formula.
    Mr. Walters. Absolutely not. There is no formula for the 
allocation of money. What determines the allocation of money 
for the placement of new national cemeteries is our access 
policies, which is wherever we have 80,000 veterans within a 75 
mile radius of a proposed site, that is where we place a new 
national cemetery, regardless of what state it is in or whether 
it cross-cuts states or other factors.
    Ms. Titus. Well it doesn't seem to be working very well in 
the west, does it? Because they have more than 80,000 veterans 
in Las Vegas.
    Mr. Walters. Well, yes, ma'am. As you know, I mean our 
access policies at this point consider veterans covered with a 
burial option if they have convenient access to either a 
national or state cemetery.
    Ms. Titus. I would argue that that is not a convenient 
access if you have to ride 2 hours each way on mass transit and 
walk 6 miles, that is not very convenient.
    Mr. Walters. Our access standard does not take into account 
driving time and distance, it is mileage. My understanding is 
Boulder City is approximately 30 miles from Las Vegas. I am not 
aware of what the driving time would be.
    I think the bottom line, ma'am, is that we do not consider 
burial in a state cemetery to be an inferior option to being 
buried in a national cemetery.
    Ms. Titus. If you had that choice, Mr. Walters, would you 
rather by buried in a state cemetery or a national cemetery?
    Mr. Walters. I would be prefer to be buried in a place that 
is a national shrine and states can achieve national shrine 
standing and be cared for by individuals who are committed to 
the perpetual care of our Nation's heroes.
    Ms. Titus. Let me ask you this, and I think the little 
cemetery in Boulder City is great, but how much oversight do 
you have on state cemeteries after you provide some of the 
funding, because state cemeteries vary very much in terms of 
quality, in terms of policy, in terms of burial of same-sex 
couples.
    Do you go back and oversee these or once you give the money 
you are just going to trust the state veterans association to 
be sure they keep the national standard?
    Mr. Walters. No, ma'am. We have a fairly rigorous 
compliance review program which we just revamped about a year 
or so ago where we go to state facilities and we apply the same 
scorecard, the same operational standards, and measures that we 
do to our national cemeteries to the States where applicable. 
Obviously, there are some criterion that are on applicability 
to Federal facilities. But we do we view the States, we have 
scorecards for them, we give them opportunities to submit 
corrective action plans in those instances where we find 
shortcomings and we work with them to, you know, come to 
closure on problems.
    If I may mention one other thing about the acceptance of 
state cemeteries, we recently conducted the first ever customer 
satisfaction survey with those who use state cemeteries and 
buried their loved ones in state cemeteries. We don't have the 
full results, but we were able to extract some overall results 
that 98 percent of the respondents believe the appearance of 
those cemeteries, the state cemeteries with excellent; 95 
percent agreed that the quality of service provided at the 
state facilities was excellent and 98 percent said that they 
would recommend the state cemetery to a family member.
    Ms. Titus. You know, I appreciate that. I think those are 
good statistics. My time is up. That is like asking a person in 
an ice cream store who is eating ice cream if they like ice 
cream. You are not asking other people who have chosen not to 
use that facility what the reason is and what they think about 
it.
    So I just worry about state cemeteries having different 
policies in different states, just like your homeless program, 
that is a great program, but it is only in national cemeteries, 
it is not in state cemeteries.
    So I just think we need to work together on trying to fix 
that.
    Thank you, Mr. Chairman.
    Mr. Runyan. Thank you.
    I recognize Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it.
    And I want to thank you also, Mr. Chairman, for your 
service, you were an all-pro on the field, on the football 
field, a champion for our veterans and I really appreciate it. 
A tremendous advocate. Thank you.
    And I want Senator--first of all thank you for your service 
to our country. I also visited, I got an opportunity to visit 
the Clark cemetery in the Philippines. I want to also thank the 
VFW and the other service organizations who have maintained the 
cemetery up until now, they have done an outstanding job. And 
again, the private funding has come from our veterans over the 
years.
    I have a question for Mr. Walters. There have been a few 
instances in the past where individuals have highlighted 
concerns to the committee on specific sites or specific issues 
and my constituents have come to me as well. For example, in 
one instance a visitor observed a raise and a realign where 
prone headstones appeared as though they had been run over by 
construction vehicles.
    The committee has largely found the NCA to be very 
responsive when contacted on these issues in the last few 
years. My question is how do individuals, how do our 
constituents who visit national cemeteries raise concerns to 
NCA? And what actions are taken upon receiving those complaints 
or questions?
    Mr. Walters. Yes. And thank you for the question. We have a 
variety of forms through which those who visit our cemeteries 
can voice concerns, beginning with complaint logs that are 
maintained at the cemeteries. If an individual has a concern 
about something that he or she encountered, whether it be the 
physical appearance of a cemetery or the service that was 
received, they can record in the complaint log their 
observations.
    That complaint log is kept and it is reviewed through our 
organizational assessment improvement program and all of the 
complaints are followed up on in a timely manner.
    Of course there are other ways to do it. We have received a 
variety of letters from individuals expressing concerns about 
specific issues at cemeteries and we apply the same level of 
aggressive resolution to those complaints as well.
    Mr. Bilirakis. Do you respond to individuals?
    Mr. Walters. Oh, yes, sir. We respond to individual letters 
absolutely. If not ----
    Mr. Bilirakis. How long does it take? Is it on a timely 
basis? Give me an example of how long it takes to respond?
    Mr. Walters. Sure, I think it would depend on the nature of 
the complaint and how quickly we can resolve it. We usually try 
to put out an interim response at first so say we are working 
on the issue, that usually goes out if we send one within a few 
days. And then the actual resolution can vary depending again 
on the nature of the issue.
    There was an issue recently at Riverside National Cemetery, 
for example, where we got contractors that were treating 
headstones and the grounds in a manner that was inconsistent 
with what we would regard as national shrines.
    This complaint came to us. We acted very aggressively. We 
corrected the situation. And in fact, we added language 
referred to as a dignity clause to all of our national shrine 
contracts where contractors now have to be especially conscious 
of what they are doing at our grave sites to make sure they are 
honoring the dignity of the burials.
    Mr. Bilirakis. Thank you very much.
    I have one more question, Mr. Chairman.
    You testified, Mr. Walters, on the current NCA proposed 
rule and implementation of the dignified burial act of 2012; it 
is my understanding that the National Funeral Directors 
Association expressed concern with one of the details of the 
proposed rule.
    Under previous rules funeral homes were able to apply 
directly to the VA for partial reimbursement or other 
associated benefit. In their view this allowed funeral homes to 
easily provide the veteran with a timely and dignified burial 
and that is what I am concerned about. The convenience for the 
family and of course for the veteran. Without any concern about 
not being compensated for their services.
    Additionally, in situations without a next of kin under the 
proposed rule, funeral directors would have to apply to become 
the authorized representative, which would add difficulty and 
additional cost to a process where funeral directors are trying 
to honor our Nation's fallen heroes.
    Can you explain why NCA is not allowing funeral homes to 
apply directly to the VA? Were there any comments to the 
provision supporting or opposing this change during the public 
comment period?
    And I don't want to delay the process for the families, 
particularly when there is no next of kin. So if you could 
elaborate on that, I would really appreciate it?
    Mr. Walters. Congressman Bilirakis, the administration of 
that particular program falls under the Veterans Benefits 
Administration so I would be happy to for the record provide a 
response.
    I will say that, you know, the intent of the direct payment 
to the veteran was to do precisely what I thought you said 
toward the end of your comment, which is to make sure that the 
family receives the money as quickly as possible and then to 
pay their expenses with it.
    I also know that under Secretary Hickey's leadership the 
automation of burial claims has been put into place such that 
nearly half of them at this point are processed that way 
without human intervention, which then frees up staff time to 
perform other work. And the processing time for those burial 
claims has been reduced from a peak of 190 days in February of 
2013 to 64 days in December of 2014. But.
    Again, sir, I will take the specific question.
    Mr. Bilirakis. Yeah, again my concern is there a lot of 
local funeral homes and they want to help out our families. I 
just don't want to delay the process and make it inconvenient 
for the families. Or if they don't have a next of kin, they can 
take care of it directly.
    So I appreciate very much, Mr. Chairman.
    Again, thank you for your service. We are going to miss 
you.
    Mr. Runyan. Thank you. Thank you very much.
    I recognize Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I also want to join my colleagues in thanking you for your 
service in the way that you have lead this committee. I have 
enjoyed working with you in my first term in Congress. I have 
learned a lot and look forward to watching the great things 
that you are going to do in the future after you leave this 
institution, so thank you.
    To the Secretary, to Mr. Walters, first of all, I want to 
thank you for the great job that you do and that your team 
does. You have a new person in El Paso, Texas, the community 
that I have the honor of representing Amy Callahan is doing a 
terrific job, incredibly responsive, works well with our team, 
works well and is attentive to the veterans and their families 
in El Paso. So through you I want to thank her and the team in 
El Paso who do a phernomenal job. Thank you.
    Mr. Walters. Thank you, sir. I will pass that along.
    Mr. O'Rourke. And as was your predecessor Mr. Muro, you 
have been very responsive to us to meet personally. We are able 
to talk on the phone about concerns before they become real 
problems and so I want to thank you for that as well.
    I think the cemetery in El Paso at Fort Bliss is in many 
ways remarkable. It is very clean, well kept, a great staff. 
And the response I think you probably have the data to back it 
up in terms of the surveys from those customers that you serve 
has been great.
    But as you know, there is one disconnect between the NCA, 
and El Paso, and our offices and that is the fact that El Paso 
is one of the three xeriscaped or water-wise I think is the 
term you use, cemeteries out of the 131 in the system. And it 
is deeply unpopular amongst those people whose opinion I care 
about the most and that is the veterans, and their families, 
the widows, and widowers, the children, the descendants of 
those who are buried there.
    You have approached this as an either or proposition, 
either we have turf and grass--and I think your argument is 
that when El Paso and Fort Bliss had that, it was suboptimal or 
you have xeriscaping, which is water-wise, doesn't require a 
lot of management or maintenance, it is cost efficient. And in 
the opinion of some, it is aesthetically pleasing.
    So remind everybody when we talk about water-wise with 
xeriscaping, we are talking about crushed rock and dirt on 
ground, we are not talking about a desert landscaping. 
Although, there is some landscaping with shrubbery and some 
trees. But imagine you are in El Paso, Texas, visiting a family 
member who is there and it is 110 degrees outside, and you are 
asked to or want to kneel and you can't because you've asked to 
kneel on this crushed gravel.
    I am looking for an option, some way that we can work 
together to get past what is unacceptable to my community. And 
we are also asking to know what the criteria are that you use 
to make these decisions. My understanding is only 3 out of 131. 
I don't know if Mr. Hallinan would be comfortable converting 
Arlington Cemetery into a water-wise facility to save money and 
time and maintenance costs. I am going to guess the answer is 
no.
    And so our contention in El Paso is that if a water-wise 
NCA cemetery is not sufficient for the best in our system, then 
it should not be sufficient for El Paso. I want to get your 
comments and your thoughts on that and perhaps a suggested path 
on which we can work to resolve this situation for El Paso?
    Mr. Walters. Sure. Thank you for the question Congressman 
O'Rourke.
    Our decision to turf or xeriscape a cemetery is not 
arbitrary, it is based on a variety of factors, to include 
climate condition, as well as the availability of water.
    In the case of El Paso, as you know, the decision to 
xeriscape that cemetery was based on a congressionally mandated 
study in 1999. The results of that study indicated that if El 
Paso were to be maintained as a national shrine, there was not 
a sufficient amount of water to do so. And the study 
recommended xeriscaping the entire cemetery. At that point, we 
made the decision to make the investment to xeriscape the 
cemetery.
    Mr. O'Rourke. And if I could interrupt you because I only 
have 20 seconds, you are going me the history, I am asking for 
the future. How are we going to work together to resolve this 
situation? What we have today is unacceptable.
    Mr. Walters. Okay. Well, just to say, I mean our survey 
results just to put them on the record, our survey results from 
those who are using the cemetery suggest a high degree of 
acceptance, but in answer to your question.
    Mr. O'Rourke. I would refer to my colleagues ice cream shop 
analogy. I don't know that we are asking those whose family 
members were already interred or buried at that cemetery who 
did not have a choice in whether it was converted from grass to 
rocks. And who are deeply disappointed in that and are asking 
me as their Federal representative to do something about it.
    And what I get is the process that you used to arrive at 
this decision that is deeply unpopular and unacceptable to me 
and the people I represent.
    What I am asking for now how can we work together to do 
something? Perhaps we cannot turf the entire cemetery. Perhaps 
there is some water-wise solution that is an improvement upon 
the crushed rocks that cover the grave cites that we have in El 
Paso at Fort Bliss today. But because I am out of time and 
because it probably involves a longer conversation I would just 
like to gain your commitment that we can work together to do 
that.
    Mr. Walters. Absolutely. Congressman, we are always willing 
to work with you and your staff. We have done so in the past, 
we will continue to do that with you. I think a good launching 
point may very well be the study that UT El Paso is currently 
undertaking when they are examining soil conditions and perhaps 
coming up with some recommendations or thing that we can 
consider.
    So absolutely we are more than willing to work with you and 
your staff.
    Mr. O'Rourke. Great.
    Thank you Mr. Chairman.
    Mr. Runyan. Thank you.
    I recognize Mr. Stivers.
    Mr. Stivers. Mr. Chairman, I want to thank you for 
accepting unanimous consent to allow me to sit in on this 
hearing. I really appreciate your leadership, it has been an 
honor to serve with you in Congress. I know that other than 
going to the University of Michigan you have had a 
distinguished career, I happen to be a Buckeye so that part, 
you know, I wish you would come to Ohio State.
    Mr. Runyan. Good luck in the playoffs.
    Mr. Stivers. But, I really do appreciate the way you 
treated our veterans and the way you treated this committee and 
worked with both sides to come to common ground.
    Thank you for allowing me to be here.
    I have a couple of questions for Mr. Walters and then I 
have one question with Mr. Hallinan.
    Mr. Walters, I appreciate your new October 1st draft of 
regulation that would deal with next of kin. Frankly, the old 
policy caused homeless veterans and folks whose next of kin 
couldn't be identified because they had served at a conflict 
much further back in our history, real hassles in getting 
headstones. So I appreciate the updating version.
    There are only a few questions that I have about it, 
because there are some folks that are historians and other 
Archivists that are interested in helping and there are a few 
pieces of language that they don't quite understand and I 
wanted to talk with you about it.
    The first part involves where you say any individual who 
provides documentation of such lawful duty basically can 
provide information on these headstones. A lot of the 
interested parties are having trouble understanding what the 
language of such lawful duty means. I assume it means of the 
duty of the VA to provide a headstone. But is there any way you 
could clarify that here in this hearing or in writing later?
    Mr. Walters. To make sure, Congressman Stivers, that I get 
it right, I would prefer to answer that and submit it for the 
record.
    Mr. Stivers. I appreciate that and I knew that might be the 
result.
    The second is your proposed rule creates an actual date on 
the calendar, it uses April 6th, 1917 the date we entered World 
War I, but as you know, our archival records and our procedures 
on archives actually say basically anything 62 years back and 
further they don't use a date on the calendar.
    I really think it would make much more sense to have those 
two things be the same and use the archival records as 62 years 
back, instead of the drop dead date of April 6th, 1917, 
because, you know, consistency makes a lot of sense and I would 
ask you to take a look at whether you could consider that 
change as well.
    Mr. Walters. Sure. We received 383 comments on this 
particular proposed rule and we are going through them right 
now and I am sure that is one of them.
    In general, sir, what I will say is that our primarily 
motivation in establishing the April 1917 date was to really 
honor family members' wishes to the extent possible. If we 
establish the 62-year timeline, that would be in place through 
NARA, we are basically establishing a date of 1952 as the 
launching point. And we felt that family members would be alive 
for veterans who served prior to 1952.
    So because of that, we thought it would just be best to 
move the date back to just say standard date of our entrance 
into World War I and then go from there.
    Mr. Stivers. And I certainly appreciate that.
    I would ask you to look at it. Because certainly many of 
our veterans during the draft were more socioeconomically 
disadvantaged. There were more broken families. And so I just 
would ask you to take a look. If you can have consistency, I 
think it makes sense.
    You know, I don't think the April 6, 1917, is the worst 
thing in the world, but I think consistency--one of the rules 
we need to live by up here is, if we can create things that are 
consistent, it just makes it easier for everybody. So please 
take a look at that.
    And the last thing I would ask is if you could consider 
community--the sort of community of historians. Every State has 
a State historic preservation officer. And if you can include 
some language about that. It is a State Governor-appointed 
position.
    If you could, you know, allow those folks to be included in 
this by name and by spelling them out, I think it would be 
really helpful because there is one in every State. There is 
actually, I believe, one for federally recognized Indian tribes 
separately from our 50 States and the 4 territories as well.
    So they are everywhere. And it is a position that could and 
should be, I think, recognized in this regulation. But I would 
ask you to take a look at it. I am not asking for a response to 
that, but take a look at that as well.
    Mr. Walters. Sure. We would be happy to do that, sir.
    Mr. Stivers. Thank you so much.
    And, Mr. Hallinan, I just wanted to thank you for the Tomb 
of Remembrance that I have worked on for almost 4 years here in 
Congress. I had a bill dealing with it. You guys took it and 
did it by regulation. And I appreciate what you are doing to 
implement that.
    You mentioned it a little bit earlier in your comments, and 
I want to thank you because it sets forward a place so that 
what happened a few years ago where some unidentified remains 
of our men and women ended up in a landfill--this will make 
sure that never happens again. I really appreciate the efforts 
you have put in it, and I just wanted to say thank you.
    Mr. Hallinan. Well, Congressman, on behalf of my staff, you 
are most welcome. They exist. The only reason they have a job 
is to serve our Nation's heroes. And to people that wore the 
uniform, that was a sensitive subject. We understood your 
concern. We were out front. We have worked the process.
    I am happy to update the committee that we will advertise 
that project in March of 2015. We anticipate a contract being 
awarded in April of 2015, with 180 days to start and complete 
that project. So October or November of 2015, I anticipate 
having a Tomb of Remembrance at Arlington.
    Mr. Stivers. I appreciate that.
    Even our unidentified soldiers, sailors, airmen, and 
Marines, and even their fragments and remains deserve a place 
of honor. I really appreciate that.
    Mr. Hallinan. You are most welcome, sir.
    Mr. Stivers. Thank you.
    Last I would like to thank Senator Cleland for employing 
one of my constituents, John Marshall. It is good to see John 
here. But I really appreciate you and what you do for our 
veterans. And thank you for serving our veterans that happen to 
be buried around the globe.
    I happened to visit one of your cemeteries in France this 
year. It was very well kept up. I really appreciate that you 
take your mission seriously and honor our heroes, regardless of 
where they happen to have their final resting place.
    Mr. Cleland. Thank you very much, Mr. Congressman.
    Mr. Stivers. Thank you. I yield back the balance.
    And I want to again thank the chairman and wish him great 
luck on his future. I know you have got great things.
    Mr. Runyan. Thank you very much.
    Mr. Stivers. We will miss you as a blocker.
    Mr. Runyan. Thanks.
    I have one more question. I will open it up to the other 
members, also, if they have another one, or if they want 
another five, feel free.
    Only because the first meeting that I had with Secretary 
McDonald--he sat down and he said something that really got the 
wheels turning. And I know Arlington's kind of strategic plan.
    I want to address this really to Mr. Walters about NCA and 
strategic plan moving forward. Because specifically after these 
conflicts we are coming out of, are we prepared for the volume 
that we are going to have? And what studies, plans, do we have 
to be able to deal with this moving forward?
    Mr. Walters. Thank you, Mr. Chairman.
    The National Cemetery Administration has a very robust 
strategic planning effort. As far as predicting the future 
gravesite need or interment rates, we use the Vet Pop 2011 
model that we received from another office within the VA. That 
model provides us with veteran-level data at the county level.
    Using that data, which is based on the 2010 census--using 
that data, we then look at historical patterns down to the 
individual cemetery level and make projections and assumptions 
20, 30 years into the future. I will say that we have been 
historically extremely successful with these predictions.
    In most years, we have a variance of about 1 percent from 
our projected interment rates, which, in turn, informs the need 
for additional gravesites and construction projects.
    So any cohort in the future would be reflected in these 
models. We would reflect it in our utilization rates--our prior 
year utilization rates, and that would be translated into our 
future projections and our construction planning models.
    As a result of our planning models, we have never had an 
interruption in burial service at a national cemetery, and we 
intend to continue that record.
    Mr. Runyan. Thank you for that response. Because I know we 
all sit with what we deal with with VBA and VHA and how we are 
unable to predict a lot of that stuff. So thank you for that 
response.
    Ms. Titus. Thank you.
    I would just ask Secretary Cleland if the typhoon that has 
recently hit the Philippines has an impact on our cemeteries 
there and what is happening, and, second, what you all are 
doing with Normandy and the French Government to have that site 
declared a UNESCO international heritage site and how that 
effects our cemeteries.
    Mr. Cleland. Thank you very much.
    The last question I don't know the answer to, and I will 
call upon Mike Conley, who might know an answer to it.
    The first question about the typhoons, typhoons hit the 
Philippines from time to time. Sometimes the trees are blown 
down. Gravesites are impacted.
    So we are subject to the weather like anyone else. However, 
we have a great crew out there and a great leader, and they are 
always Johnny-on-the-spot in responding and setting things 
right.
    Ms. Titus. That is good to know. Thank you.
    I would just be curious to know about the heritage site.
    Mr. Cleland. The heritage site--I will have to ask Mike 
Conley does he knowing anything about the heritage site at 
Normandy.
    Mr. Conley. Ms. Titus, forgive my voice. I have got a cold.
    But we are in contact with the UNESCO folks. Our overseas 
operations office in Gars just outside Paris has reviewed 
paperwork, and we are considering whether we want to endorse 
that.
    Our concern, obviously, is that, if it is declared a world 
heritage site, that there is nothing in there that would 
prevent us from maintaining and improving upon the site as we 
deem appropriate as the years go ahead.
    But clearly the nature of the events that happened there 
clearly fall under the criteria and deserve to be so 
recognized.
    Ms. Titus. I agree with that. Well, thank you.
    Mr. Runyan. Mr. Secretary, can you identify him for the 
record, please.
    Mr. Cleland. That was Mike Conley, our chief administrative 
officer.
    Mr. Runyan. Thank you very much.
    Mr. O'Rourke.
    Mr. O'Rourke. Yeah. A question for Mr. Hallinan.
    A constituent of mine and her husband are both eligible for 
burial at Arlington, but my understanding is that the rules do 
not allow them to reserve a plot next to each other and, if 
they do want to be buried together, they will be buried one on 
top of the other and they will share a headstone with one's 
name on one side, the other's on the other.
    Is that a rule in place because of space limitations, in 
other words, you are not allowed to reserve a plot next to your 
spouse like you might at another national cemetery because I 
think it is 2050 that we are running out of room?
    Mr. Hallinan. Congressman, to answer your question, there 
were prior reservations at Arlington under the U.S. Army, which 
ended in 1962 by law. So there are no legal reservations 
anymore. Arlington is unique. It is a space issue.
    There are different types of burial patterns at our 
national cemeteries, as Mr. Powers and Mr. Walters and former 
Senator Cleland are aware of. But that would be a driver to 
bury people side by side. To give them their own grave would 
quickly use up the remaining capacity at Arlington National 
Cemetery. So that was part of the process that developed.
    But you are 100 percent accurate. Both are eligible. I am 
taking that as a given. But they would be buried together in 
the same gravesite. Whoever predeceases will go in first, and 
the remaining spouse, when he or she were to pass, would go in 
on top. They would share the information on a government 
headstone. Yes.
    Mr. O'Rourke. And is there a plan in place to add 
additional grounds post-2050.
    Mr. Hallinan. I don't want to say no, Congressman. I 
believe that, when we approach in that year of the decade, 
there may be some opportunities.
    But it is very difficult in the area that we are in in 
Washington. We have taken--under the Millennium Project, we 
have taken space from Fort Myer--a possibility of looking at 
Fort Myer again.
    But when one looks for available space outside of the 
current--the next expansion process, the southern expansion, 
you have to look at what is going to be gained by it. It is not 
just a matter of maximizing burial space. A place like Fort 
Myer is a place where the Caissons and military units and MDW 
support Arlington on a daily basis. It has a small footprint 
already.
    Any future expansion will probably come at great financial 
cost. There may be land, you know, towards where the current 
Iwo Jima Memorial is now. But we are really starting to get out 
there.
    And I am sure any interest we show beyond our current 
footprint and where we are going to go to 2050 will be rather 
difficult and a sensitive issue. But we are looking. We do 
project beyond, what comes after 2050 for Arlington.
    Mr. O'Rourke. And, lastly, for Mr. Walters. Thank you for 
your commitment to work with me. I really appreciate that. And 
while I feel very strongly about the position that we hold 
related to the cemetery, I do again want to commend you and 
your team for the way in which you take care of it. I think, 
again, it is very clean, looks really nice for what it is.
    But I have just heard from too many veterans and their 
families at this point who desperately want something that is 
more accommodating for them as they pay tribute to their loved 
one. And so I know that there is a way that we can work 
together to get this done. So I appreciate your willingness to 
work with me on that.
    Mr. Walters. We look forward to working with you, sir.
    Mr. O'Rourke. Thanks.
    Thank you, Mr. Chairman.
    Mr. Runyan. Thank you.
    And, with that, gentlemen, on behalf of the subcommittee, I 
thank you for your testimony. I wish you all success 2015. And 
you are now excused. And we will wait a few minutes to switch 
over the witness table.
    At this time we welcome our second panel, Ms. Ami 
Neiberger-Miller, who is the Director of Outreach and Education 
for the Tragedy Assistance Program for Survivors; and Ms. Diane 
Zumatto, National Legislative Director for AMVETS. We 
appreciate your attendance here today. Your complete and 
written statements will be entered into the hearing record.
    Ms. Neiberger-Miller, you are now recognized for 5 minutes 
for your testimony.

               STATEMENT OF AMI NEIBERGER-MILLER

    Ms. Neiberger-Miller. Thank you.
    I am pleased to submit this testimony on behalf of TAPS, 
the Tragedy Assistance Program for Survivors. TAPS is a 
nonprofit organization that provides comforting care to anyone 
grieving the death of someone who died while serving in our 
Armed Forces, regardless of where they died or how they died.
    We appreciate the subcommittee's continuing interest in 
ensuring our Nation's veterans and servicemembers have final 
resting places that are honorable and well maintained. These 
issues touch my family. My brother was killed in action in Iraq 
and is buried in Arlington National Cemetery, and my father-in-
law is also buried at Arlington.
    We hope you will review our submitted testimony, which 
includes opinions on legislative initiatives related to 
national cemeteries and Arlington.
    The scandal that enveloped the Department of Affairs also 
touched the National Cemetery Administration last year. 
Unfortunately, the previous Under Secretary for Memorial 
Affairs retired after an OIG report revealed he had engaged in 
prohibited practices and preferential treatment.
    But new leadership is now in place, and we very much 
appreciate the opportunities we have had to meet with VA 
Secretary Robert McDonald and Under Secretary Sloan Gibson. We 
know they have a commitment to assisting survivors, and it is 
our hope that new VA leadership will move forward in a positive 
and honorable way.
    We are pleased to report the number of pending burial 
allowance claims has declined significantly since last year at 
this hearing with 17,818 on last week's VA report. While these 
benefits do not route through the National Cemetery 
Administration, delay in their delivery hurts families by 
forcing them to delay settling estates and does impact their 
view of the VA.
    At Arlington National Cemetery, we are in a different place 
today than we were even a year ago when surviving families were 
upset about the removal of mementos from gravesites at Section 
60. Section 60 is where hundreds of those who paid the ultimate 
sacrifice in Iraq or Afghanistan are buried, including my 
brother.
    Superintendent Hallinan met with families and has extended 
a compromise permitting them to leave handcrafted objects and 
small laminated photos at gravesites. Initially, this was a 
pilot during the non-growing season last year, and the 
compromise was extended into the growing season and is still 
currently in place.
    The families are very grateful for this compromise. They 
have worked to educate each other about the rules, and the 
majority follow them. A few still do not follow the policies, 
but the appearance of the section is much more uniform and 
improved. One town hall meeting was held earlier this year with 
families, and we are hopeful lines of communication will remain 
open between the families and the Administration.
    Because some families were turned away on Memorial Day from 
Arlington due to logistics issues out on the bridge with 
security, we are also working with the cemetery leadership to 
help better distribute logistics information to survivors in 
advance of these major events. So no one is turned away.
    We would like to see greater survivor involvement in an 
advisory capacity. No survivor has served on the advisory 
committee for Arlington National Cemetery since Janet Manion's 
death in April of 2012.
    While the members of the committee all have exemplary 
military and veteran service credentials--and I should add the 
chair of that committee just testified on the previous panel--
we believe their deliberations would benefit from the insight 
of a survivor's perspective.
    We thank you for the opportunity to submit our testimony, 
and we welcome any questions.

    [The prepared statement of Ami Neiberger-Miller appears in 
the Appendix]

    Mr. Runyan. Thank you, Ms. Neiberger-Miller.
    With that, I recognize Ms. Zumatto for her testimony.

                 STATEMENT OF DIANE M. ZUMATTO

    Ms. Zumatto. Chairman Runyan, Ranking Member Titus, and 
distinguished members of the subcommittee, on behalf of AMVETS, 
I thank you for the opportunity to assist you in the important 
job of overseeing our national cemeteries.
    Previously my testimony before this committee has been 
somewhat limited to a repetition of facts and statistics. 
However, today's testimony will be much more heartfelt and 
personal.
    Because I love history, am a trained historic 
preservationist, love my country, and grew up visiting and 
documenting cemeteries in the New England area, today's topic 
is important to me both personally and professionally.
    I think it is safe to say that everybody in this room knows 
and appreciates the sacred responsibility entrusted to the 
National Cemetery Administration to honor the memory of 
America's military men and women.
    I would like to set the stage briefly to convey the true 
importance of our national cemeteries not only to our Nation's 
veterans, but to all American citizens.
    Historically, cemeteries, especially military cemeteries, 
were much more than established sites of burial with regimented 
internal layouts conducive to both the expression of personal 
grief and accepted societal funerary rituals.
    Few individuals are aware, I believe, of some of the 
equally important social and political aspects of cemeteries, 
including promoting and preserving the individuality and status 
of the deceased, the setting aside of landscaped spaces in or 
near communities delineated by defined boundaries, the 
organized commemoration of significant events and/or persons, 
serving as places of beauty and tranquility where friends and 
family can gather, as expressions of national identity and 
pride, especially in the case of military cemeteries, and as 
sites of pilgrimage and permanence.
    I am hopeful that this brief introduction has sparked a 
greater appreciation of historic national value of the many 
unique and irreplaceable cemeteries held in trust within the 
NCA system. The monuments, gravestones, architecture, 
landscape, and related memorial tributes within each NCA 
cemetery are richly steeped in history and represent the very 
foundations of these United States.
    How can we do any less than our absolute best to develop 
and maintain these truly American shrines? After having spent 
several weeks this summer visiting national cemeteries--there 
were seven that I was able to get to in four different MSNs--my 
impression of NCA cemeteries and its employees is higher than 
ever.
    Having had the rare opportunity for in-depth visits where I 
was able to observe every facet of cemetery operations, I was 
both moved and impressed with the care and professionalism at 
every level of the organization.
    None of the cemeteries I visited displayed any blatant 
shortcomings that would be obvious to the casual observer. This 
level of attention to detail, dedication, and commitment to 
providing the highest quality of service to veterans and their 
families would not be possible without positive role models and 
strong leadership throughout the NCA system.
    I certainly acknowledge that perfection does not exist in 
this world and that I have not yet had the opportunity to visit 
every cemetery under the stewardship of the NCA. But given the 
resources, both human and financial, I must equally acknowledge 
that NCA continually strives to meet its most important 
obligation, providing dignified resting places for our Nation's 
veterans and their eligible family members.
    This concludes my testimony. And I will be happy to answer 
your questions.

    [The prepared statement of Diane Zumatto appears in the 
Appendix]

    Mr. Runyan. Thank you very much.
    And we will begin a round of questions.
    Ms. Neiberger-Miller. TAPS has sought to inform surviving 
families who visit Arlington National Cemetery about the 
enhanced security procedures resulting in access constraints 
during major holidays and at a time when many families choose 
to visit their fallen loved ones.
    How successful has TAPS outreach been, as your testimony 
noted several areas where TAPS has volunteered to assist in 
spreading word? And how do you think outreach could be more 
effective while also compassionate?
    Ms. Neiberger-Miller. Well, sir, I think for us it is about 
reaching out to our families and distributing information. We 
have made improvements in our survivor database so that we can 
better track our families around the burial location of their 
loved one.
    One of the challenges is that many of the families who bury 
their loved ones at Arlington do not live in the Washington 
area. So unlike people who reside here, they are not familiar 
with the security precautions that occur when the President or 
the Vice President travel to an event.
    And so sometimes those families, especially when they are 
coming in from out of town, get caught on the bridge or in very 
serious traffic issues and are not familiar with the security 
lockdown procedures. And so our role has been to compile the 
information and to distribute it by email to families.
    I would say we still have some improvements that we are 
trying to make, but we are working hard at that. And we have 
also met with the Cemetery Administration over the summer to 
actually make some additional improvements because of some 
concerns over Memorial Day.
    Mr. Runyan. And very similar to information. And I wanted 
to thank TAPS for participating in discussion with Gold Star 
families and Section 60 in particular.
    You said in your testimony that it is an agreement and it 
is not a formal--do you have any suggestions on how to move 
forward and kind of ease that anxiety?
    Ms. Neiberger-Miller. Well, I think for all of us it has 
been about keeping the lines of communication open. You know, 
the situation a year ago, we had a group of very upset 
families.
    And for our families to really talk with the 
Administration, to see them as people, for the Administration 
to meet them as people and to look them in the eye and say, you 
know, ``We want to work with you on this,'' that went a long 
way.
    And so I think it became about how to humanize the 
conversation and then how to figure out what could work for 
everyone, recognizing that the cemetery has to be at a certain 
standard as a national shrine, but also recognizing that 
grieving is different today and, for some people, leaving an 
object or a photograph is extremely important, and, so, how 
could we work out something that would work for everyone.
    And so the families have really done a lot, I think, to 
help educate each other, and they have kept those lines of 
communication open. And that has been key.
    Mr. Runyan. Thank you.
    Ms. Zumatto, you were talking about the consistency you 
have seen across your visits.
    Is there anything that stood out to you when you visited 
the sites that was different, that wasn't--because the object 
is, obviously, to be uniform. Is there any specific things that 
stood out?
    Ms. Zumatto. I am going to say not really. The seven sites 
that I visited--and they were not just brief run in and out. I 
usually spent a minimum of two days or more at each site. I 
just did not--I mean, I wasn't going through their records.
    This was more observing--for instance, at Jefferson 
Barracks, I spent one day just at their training center. I 
spent another day at the scheduling office so I could see the 
process. And then I spent a day at the cemetery itself.
    But every site that I went to I was truly--I was surprised, 
I think, by the care of the chain of custody, if you will. I 
had no idea what the process was like until I went to Jefferson 
Barracks, where I started, and the redundancy at every point to 
ensure that, you know, it was the right veteran and that the 
site where they were going to be interred was the right site.
    I mean, they use maps. They draw--you know, this stone is 
here. This stone is here. Just the detail so that there are no 
errors is perhaps one of the things that really struck me. 
That, and, as I was riding around with different employees 
during my visits, I would constantly see--they would stop the 
vehicle if they saw somebody walking around who looked like 
they needed help or, if they saw a piece of trash in the road 
or, you know, in the cemetery itself, they just got out. They 
took care of it.
    It was just really very reassuring to see that level of 
care at every step of the way.
    Mr. Runyan. Thank you. Good to hear.
    With that, I will yield to the ranking member, Ms. Titus.
    Ms. Titus. Thank you.
    Thank you both for all the good work you do with families 
during this most difficult time.
    I would ask Ms. Neiberger-Miller if you have the same 
experience dealing with people and talking to families that we 
heard reported in the surveys that the NCA does. They say their 
surveys show that 95 percent of the people are satisfied. It 
has got the best marks of any government agency.
    Is that compatible with what you hear on the ground from 
families?
    Ms. Neiberger-Miller. We hear from families that they are 
often very satisfied with the burial process. Unfortunately, we 
do work with people who are traumatically bereaved. And so many 
of these people are struggling, also, with short-term memory 
loss issues or some other issues going on. They are often in a 
great state of shock.
    These are people who died young, who were not expected to 
die, who often died in very violent ways. And so their family 
is often in a great degree of shock. The burial is often very 
quickly after the death. There is not a wait, typically, for an 
active duty service that is extremely long.
    And so the family sometimes even needs the photographs or 
other things from the service to really recall it very well. 
And that is unfortunate, but they always will say that they 
feel their loved one was honored and that they feel that 
placement at Arlington or at a national cemetery honors their 
loved one's service and sacrifice for our country.
    Ms. Titus. Do you ever talk to families who feel like they 
don't live close enough to a national cemetery to be able to 
access it, so, they just resort to some other kind of more 
private funeral?
    Ms. Neiberger-Miller. Well, there are families sometimes 
who really have to make very difficult decisions also because 
this was someone who wasn't expected to die. So there was no 
family plan in place, per se, like their might be for, say, an 
older veteran like my father-in-law who knew for several 
decades he wanted to be buried at Arlington and told all of us 
that.
    And so families sometimes don't always recognize the travel 
distances that they may be assuming or may not realize they 
want to visit as often as they do after a death. And that can 
be challenging for them to make a long-distance trip to go and 
visit a location. We don't hear often from families about that, 
but it certainly is something that is discussed sometimes.
    Ms. Titus. Thank you.
    And, Ms. Zumatto, when you visited those seven cemeteries, 
did you visit any State cemeteries or just national?
    Ms. Zumatto. I have not yet had the opportunity to visit a 
State cemetery. No, ma'am.
    Ms. Titus. Do you think some of your veterans would like to 
see more cemeteries in the west where they could be buried in a 
national cemetery, not just a State cemetery or some convenient 
facility?
    Ms. Zumatto. Well, personally, just from my knowledge--not 
personal experience, but from research, if you will--I don't 
really believe that being buried in a State cemetery--a State 
veterans cemetery is any less honorable. I just don't see it as 
a negative.
    If there is no National cemetery or if that National 
cemetery has no more available space, then, you know, I don't 
see why, as long as the State cemetery is being maintained to, 
you know, the shrine standard, that that should be an issue.
    However, I did have a member tell me the other day about a 
problem in Alaska having to do with access. And, apparently, 
there are two national cemeteries in Alaska, one of which is 
only accessible by boat, and the other, apparently, is on an 
active military installation.
    And the issue that he brought up was the fact that it is 
difficult, not everybody has access to a boat, but that, if 
there is any sort of security issues going on on the base, then 
the base is closed and then you can't access the cemetery.
    But, as I say, as far as State cemeteries go, I haven't 
been to one. It is on my list. And I am going to continue 
visiting cemeteries.
    Ms. Titus. I just worry about policy varying from State to 
State, even with the checklist. For example, a same-sex couple 
might be able to get buried together in a State that recognizes 
it, but not in a State that doesn't, if it is a state cemetery, 
not a national cemetery.
    So I think, while state cemeteries--I think the one in 
Nevada, in Boulder City, is great--I think there are still 
differences that we need to address. Appreciate it.
    Thank you, Mr. Chairman.
    Mr. Runyan. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Ms. Neiberger-Miller, thank you for your testimony. I 
really enjoy hearings like these that our chairman and ranking 
member put together.
    Other than your testimony, I really didn't know about a lot 
of these issues. So I appreciate you bringing your perspective 
directly to us.
    And, likewise, Ms. Zumatto. I really appreciate all of the 
work and time that you took to go to these different 
cemeteries, including the one at Fort Bliss in El Paso, Texas. 
And I really appreciate that.
    I just want to note for the record that Mr. Walters and Mr. 
Hallinan are here as well, which I really appreciate the fact 
that you are listening as well to gain insight.
    And, Ms. Zumatto, I really appreciated your remarks in your 
written testimony about the national cemetery at Fort Bliss. 
And you described it as serene and beautiful and very well 
maintained and a little bit of a surprise because you had heard 
that there was some discontent in El Paso about the cemetery, 
and I really can't argue with your conclusions.
    I think it is a very serene, a very beautiful place, again, 
so clean and well maintained for the resources that they have. 
You know, if you are going to have that crushed rock and some 
small areas of grass, some small areas of trees and 
landscaping, it is excellently maintained.
    I think the disconnect might come when we talk to the 
families, the survivors, who can also appreciate everything 
that you describe in your assessment, but then that act of 
actually kneeling at the gravesite or being close to the 
headstone is a lesser experience for them--and this is, you 
know, their experience as they relate it to me--because of that 
environment and not having that grass and that expectation 
because it was there before and because it is in the vast 
majority of other cemeteries in El Paso and almost every other 
single national cemetery.
    But you also said something that I thought was so important 
in your testimony--or wrote in your testimony, which was that, 
when you visited with VSOs prior to visiting the cemetery, you 
found that they were not as upset with the aesthetics as they 
were with the process and they felt like they had been 
disconnected from the process used to choose the xeriscaping or 
the WaterWise.
    Talk a little bit--I had a great exchange with Mr. Walters 
in the previous panel where we agreed that we would try to work 
together to find a way to make an improvement. Maybe it is not 
turf and maybe it is not staying with the status quo. Maybe it 
is something better for all concerned.
    Talk a little bit about a process that you might recommend 
from your experience that we could use in working with 
survivors, working with veterans, working with VSOs in our 
community, and working with the NCA.
    Sorry to put you on the spot. Since you had that great 
conversation with the VSOs there, I thought you might have some 
thoughts on it.
    Ms. Zumatto. Well, I have not done a study of xeriscaping, 
so, I am not sure what other types of low maintenance or 
WaterWise options there might be.
    I would doubt that what is currently at Fort Bliss is the 
only avenue available. I have seen pictures of Fort Bliss back 
when it was turfed, and in the picture I can see a lot of brown 
and bare patches.
    Mr. O'Rourke. Doesn't look good, does it?
    Ms. Zumatto. So I can't imagine that that would be any 
better.
    Mr. O'Rourke. Right.
    Ms. Zumatto. I don't know if I said this in my written 
testimony or not, but--and this was my first experience being 
in a desert. But when you stand in the cemetery and you look at 
the environment all around, it is perfectly suited the way it 
is.
    I did ask--I went to a local VFW post, actually, while I 
was there, the day before I went to the cemetery, to talk to 
veterans and see what they thought about it. And you mentioned 
that--you know, a couple of things.
    I asked them if it was difficult to walk on. Somebody was 
saying that, you know, an elderly person, perhaps, or somebody 
with some disability--you know, do they have difficulty either 
with a wheelchair on that surface or, you know, walking on that 
surface. So that possibility came up. I didn't try either 
myself when I was there. It was 120 degrees that day, so, I 
didn't try kneeling.
    But there were people visiting the cemetery when I was 
there and I did notice at least two individuals had brought 
like--almost like a small prayer rug, if you will, something to 
put on the ground to kneel on, which I thought was, you know, a 
pretty good option.
    But one other thing that I will mention is I recently came 
back from a visit to a national military cemetery in Israel, 
and they did not have any grass in that cemetery.
    Mr. O'Rourke. Now, what is on--I saw your picture from the 
cemetery in Israel, and it looks like there is grass on the 
actual grave. It looks like it is surrounded by stones and 
there is some material in between the stones over the grave.
    Is that grass or some other covering?
    Ms. Zumatto. The ground is mainly flagstone-type material, 
and then each individual grave is sort of built up. There is a 
wall, a surround, if you will. And on top of that, there is 
grass--excuse me--there is soil, but it is not grass.
    There are plants there, and there were a variety of 
different things. And I don't know--because of that variety, I 
wonder if family members maybe tried to personalize their loved 
one's site. But it wasn't grass. And anyplace that didn't have 
flagstones was bare dirt.
    Mr. O'Rourke. Well, I appreciate you bringing that to our 
attention. I have got the pictures here in front of me, and it 
just provides yet another option.
    In other words, it is not a choice--I would say a false 
choice between bad turf and grass, which is what Fort Bliss 
had, and the crushed rock.
    But as you saw in the Chihuahuan Desert, it is full of life 
and there are forms of grass and plant life that thrive there, 
and I think there is some middle ground we can reach. And maybe 
looking at what others have done, including in Israel, gives us 
some options.
    So, again, thank you for doing the work and providing us 
some other perspective on this. I really appreciate it.
    Thank you both for your testimony.
    Ms. Zumatto. My pleasure.
    Mr. Runyan. Anything further? No. Okay.
    Well, on behalf of the subcommittee, I would like to thank 
you for your testimony and for the works that TAPS and AMVETS 
does to honor our veterans and care for their families and 
loved ones. You are now excused.
    I want to thank everyone for being here today. The status 
reports from our cemetery and memorial representatives and the 
input from the VSO community was well presented, and the 
subcommittee appreciates the work that went into the 
preparation for today's hearing.
    I am certain that this subcommittee will continue to engage 
in these issues in the next Congress as the final resting place 
for our veterans and the families left behind deserve the 
highest standard of care.
    I would like to once again thank our witnesses for being 
here today and ask unanimous consent that all members have 5 
legislative days to revise and extend their remarks and include 
any extraneous material. Hearing no objection, so ordered.
    I thank the members for their attendance today. And this 
hearing is adjourned.
    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Prepared Statement of Max Cleland

    Mr. Chairman and Members of the Subcommittee
    On behalf of our Chairman General Tony McPeak and our Board of 
Commissioners, I thank you for this opportunity to discuss the mission, 
operations and programs of the American Battle Monuments Commission.
    Since 1923, our purpose has not changed--to commemorate the service 
and achievements of America's armed forces, yet our methods have 
changed. We execute our mission by creating memorials worldwide where 
U.S. forces have served, and by administering 25 overseas military 
cemeteries--shrines to our fallen and those that fought by their side.
    We do this with the words of our first Chairman, General of the 
Armies John J. Pershing ever in mind. General Pershing's words serve as 
the foundation statement for all that we do:

``Time Will Not Dim the Glory of Their Deeds''

    The cemeteries and memorials we administer have been entrusted to 
our care by the American people--we take that as a solemn 
responsibility. For the first 80 years of our history, ABMC's principle 
focus was to maintain our commemorative sites to the highest of 
standards. That remains and always will be our core mission--the war 
dead we honor deserve nothing less.
    2014 has proven to be a significant commemorative year for the 
Nation and for our Commission. We were honored to host President Obama 
at three of the Commission's overseas cemeteries this fiscal year: 
Flanders Field American Cemetery in Belgium; Manila American Cemetery 
in the Philippines; and Normandy American Cemetery, France.
    At Normandy on June 6th, the president was joined by French 
President Hollande, Secretary of State Kerry, Secretary of Defense 
Hagel, Congressional delegations, and many other civilian and military 
dignitaries to commemorate the 70th Anniversary of the D-Day landings. 
Before an audience of 10,000, including more than 300 D-Day veterans, 
the President reflected on the historical significance of June 6, 1944:
    ``We come to tell the story of the men and women who did it so that 
it remains seared into the memory of a future world. We tell this story 
for the old soldiers who pull themselves a little straighter today to 
salute brothers who never made it home. We tell the story for the 
daughter who clutches a faded photo of her father, forever young; for 
the child who runs his fingers over colorful ribbons he knows signify 
something of great consequence, even if he doesn't yet fully understand 
why.''
    Unlike the Longest Day 70 years ago, it was a beautiful June day in 
Normandy to remember the achievement and sacrifice of the more than 
10,000 brave souls buried in the hallowed Normandy grounds and 
memorialized on the cemetery's Tablets of the Missing.
    Other significant commemorative events this past year included the 
70th anniversary of Operation Market Garden at Netherlands American 
Cemetery and the 70th anniversary of Operation Dragoon at Rhone 
American Cemetery in southern France.
    Not long after these World War II events concluded, attention 
shifted in August to the World War I Centennial. Although the 100th 
anniversary of the United States entry into the Great War will not 
begin until April 2017, the Commission's eight World War I cemeteries 
in Europe will receive increased attention as visitors travel to the 
battlefields where the fathers and mothers of the ``Greatest 
Generation'' witnessed unprecedented devastation and death; places 
where American sacrifice ultimately opened an American Century.

    I have shared with you previously the ambitious visitor center 
projects we began as part of our Interpretation Program--what we now 
refer to as Telling Their Story. I'm pleased to report this morning 
that two new visitor centers at our Cambridge and Sicily-Rome 
cemeteries were dedicated on Memorial Day, and the renovated visitor 
center at the Pointe du Hoc Ranger Monument--just nine kilometers from 
Normandy cemetery--was dedicated June 5th on the eve of D-Day.
    Visitor center renovation projects at two World War I cemeteries--
Meuse-Argonne in France and Flanders Field in Belgium--are in design. 
And three additional visitor center projects are in various stages of 
development:

        <bullet> At our Honolulu Memorial in the Department of Veterans 
        Affairs National Memorial Cemetery of the Pacific--the 
        Punchbowl;
        <bullet> At Manila American Cemetery, our only World War II 
        commemorative cemetery in the Pacific; and,
        <bullet> At the World War I Chateau-Thierry Monument in France, 
        located about one hour east of Paris.

    We also have two new monuments in development.

        <bullet> A monument to be placed at Midway Island has been 
        designed and fabricated, and installation is forthcoming.
        <bullet> We launched a competition to select an architect to 
        design a U.S. monument for New Zealand's national memorial park 
        in Wellington, responding to an invitation from the Government 
        of New Zealand.

    These monument projects are part of an initiative launched by our 
Board of Commissioners, with the counsel of the military service 
historians, to honor significant battles and achievements of U.S. 
forces that have not previously been commemorated by the Commission.
    Closer to home, we partnered with the National Park Service to 
renovate and upgrade kiosks and educational content at the World War II 
and Korean War memorials on the National Mall, significantly enhancing 
the visitor experience. Particularly popular is the ability for 
visitors to access ABMC's World War II Registry and Korean War Honor 
Roll databases at the kiosks.
    We are strengthening our collaboration with Arlington National 
Cemetery, defining opportunities to share best practices and training. 
We can learn much from the technological advances ANC has made in 
recent years, and we can share the core competencies for which our 
agency has become known, strengthening both organizations. Likewise, we 
continue our long-standing relationship with the National Cemetery 
Administration through advisory committees and our shared interest in 
the National Memorial Cemetery of the Pacific, home of our Honolulu 
Memorial. Through such collaborations we have the opportunity, 
collectively, to improve the efficiency of our operations and more 
effectively serve our stakeholders.
    Phase two of the Commission's education program initiative has 
begun with the award of a contract to a joint venture of National 
History Day and the George Mason University Center for History and New 
Media to create a World War II-focused, education program developed by 
teachers that will help students better understand the service, 
experience and sacrifice of American armed forces that served and died 
during the war in Northern Europe.
    Products related to World War I, developed in partnership with the 
University of North Carolina and Virginia Tech as phase one of our 
education program, will be completed by the end of this year.
    The Commission received a new mission responsibility in fiscal year 
2014 with completion in December 2013 of a Memorandum of Understanding 
(MOU) between the U.S. and the Republic of the Philippines, giving ABMC 
the ability to restore and maintain Clark Veterans Cemetery in the 
Philippines as ABMC's 25th cemetery. The action was contemplated by the 
Dignified Burial and Other Veterans' Benefits Improvement Act (Public 
Law 112-260), signed into law by President Obama in January 2013. Our 
staff at Manila American Cemetery began basic maintenance of the 
cemetery immediately upon signature of the MOU, as well as, restoration 
of the perimeter fence and construction of a temporary equipment 
storage facility. We are awaiting the completion of an engineering 
assessment of the physical condition of the cemetery and expect initial 
results this month. We will carefully analyze those results to develop 
recommendations regarding appropriate next steps that will guide future 
restoration plans, long-term maintenance requirements, and budget 
requests beginning in the fiscal year 2017 budget cycle.
    Although ABMC's core mission remains unchanged, in order that we 
appropriately continue to honor our Nation's fallen, we have found it 
essential to place emphasis on ``telling the story'' of these brave men 
and women. As we find ourselves further in time from the seminal events 
we commemorate, it is critical that we provide context for younger 
generations of Americans who have little understanding of why their 
fellow Americans rest in the soil of England, France, Belgium, 
Luxembourg, Italy, or the Philippines.
    Our visitor centers at Normandy, Cambridge, Sicily-Rome and Pointe 
du Hoc, and the projects underway or planned, have inestimable value in 
enabling understanding of the historical events surrounding the ``the 
glory of their deeds'' and the placement of these cemeteries. As such, 
we are re-invigorating our strategic plan to set forth a path focused 
on better supporting this essential mission. In addition to our 
standing mission and vision, inspired by General Pershing's 
foundational statement; and our core values of excellence, integrity, 
stewardship, commitment and respect; we have codified a new set of 
guiding principles. These principles were designed to help fill a void 
in our educational and historical preservation activities, along with 
informing our new interpretive services program:

We Will Tell their Story

    We will preserve, communicate, and interpret the stories of 
competence, courage and sacrifice of those we honor, while providing 
historical context for why our commemorative sites were established, 
the men and women we honor, and the values for which they fought and 
died. Recognizing the changing demographics of our audiences, we will 
pursue opportunities at our sites and through education programs and 
emerging technologies to educate and inform our audiences in a way that 
evokes a lasting, personal connection.

We Will Preserve our Heritage Assets

    We will protect and maintain our commemorative sites to their 
original design intent and to exceptional standards. ABMC commemorative 
sites are completed works of civic art that reflect the Nation's 
perpetual commitment to the service and sacrifice honored within them. 
The horticultural features defined by the original landscape architects 
are integral to these sites. They will be maintained in a manner that 
enhances a sense of awe and tranquility and that reflect their status 
as important heritage assets. We will use noble materials to preserve 
and maintain the structural features of our sites to a ``like new'' 
standard that appropriately honors those for whom they were erected. We 
will plan and execute infrastructure projects that support stewardship 
and preservation, actively seeking traditional craftsmen and trades, 
while evaluating state of the art techniques, technology and products 
that produce the same results.

We Will Develop our Cultural and Historical Resources

    We will actively collect and document archival, photographic, and 
dimensional materials that enhance scholarship in and interpretation of 
our mission and our heritage assets. To facilitate management of these 
assets at the highest professional levels, we will maintain a 
thoughtful, clear and relevant scope of collections policy and a 
collection management plan, and routinely document our historical 
property, allowing us to learn and share critical information with the 
public and our stakeholders. We will engage in comprehensive planning, 
including all aspects of collections management. These management 
activities will focus on professional standards and concepts of 
inventory, assessment, treatment and management, specifically targeted 
to areas of Heritage Assets Management such as architecture, landscape 
architecture, archival and museum sciences, material science, forensic 
archeology, anthropology and related fields.
    These guiding principles will clarify our decision making and shape 
our way forward as a world class public history organization. When 
fully developed, our new strategic plan will signal a significant pivot 
in mission emphasis for the American Battle Monuments Commission.
    As we move toward 2020, we will continue our emphasis on 
maintaining the highest standard for our memorials and cemeteries, 
while providing a first class visitor education experience at each of 
our sites.
    In conclusion, I invite each of you to visit our commemorative 
sites on your future travels, to see for yourselves our stewardship of 
the resources provided to the Commission to execute the 
responsibilities assigned to us by the Administration and the Congress.

                                _________

                           Executive Summary

    Disability Assistance and Memorial Affairs by the
    Hon. Max Cleland, Secretary, American Battle Monuments Commission
    Since 1923, our purpose has not changed--to commemorate the service 
and achievements of America's armed forces. 2014 has been a significant 
commemorative year: the 70th Anniversary of the D-Day landings at 
Normandy; the 70th anniversary of Operation Market Garden at 
Netherlands; and the 70th anniversary of Operation Dragoon at Rhone. 
Although the 100th anniversary of the United States entry into the 
Great War will not begin until April 2017, the Commission's eight World 
War I cemeteries in Europe will receive increased attention as visitors 
travel to those battlefields.

    Visitor centers at our Cambridge and Sicily-Rome cemeteries were 
dedicated on Memorial Day, and the renovated visitor center at the 
Pointe du Hoc Ranger Monument was dedicated in June. Visitor center 
renovation projects at two World War I cemeteries--Meuse-Argonne in 
France and Flanders Field in Belgium--are in design, and three 
additional visitor center projects are in various stages of 
development: at our Honolulu Memorial; at Manila; and at the World War 
I Chateau-Thierry Monument in France. We also have two new monuments in 
development: at Midway Island and for New Zealand's national memorial 
park. Both projects are part of an initiative to honor significant 
achievements of U.S. forces that have not previously been commemorated 
by the Commission.
    Closer to home, we partnered with the National Park Service to 
renovate and upgrade kiosks and educational content at the World War II 
and Korean War memorials on the National Mall, and we are strengthening 
our collaboration with Arlington National Cemetery, defining 
opportunities to share best practices and training. Likewise, we 
continue our long-standing relationship with the National Cemetery 
Administration through advisory committees and our shared interest in 
the Honolulu Memorial.
    Phase two of the Commission's education program has begun with 
award of a contract to National History Day and the George Mason 
University Center for History and New Media, to create a World War II-
focused education program developed by teachers. Products related to 
World War I, developed in partnership with the University of North 
Carolina and Virginia Tech as phase one of our education program, will 
be completed by the end of this year.
    The Commission received a new mission responsibility in fiscal year 
2014 when Clark Veterans Cemetery in the Philippines became ABMC's 25th 
cemetery. We are awaiting the completion of an engineering assessment 
of the physical condition of the cemetery and expect initial results 
this month. We will carefully analyze those results to develop 
recommendations regarding appropriate next steps that will guide future 
restoration plans, long-term maintenance requirements, and budget 
requests beginning in the fiscal year 2017 budget cycle.
    ABMC's core mission remains unchanged, but to appropriately honor 
our Nation's fallen, it is essential that we tell the stories of these 
brave men and women. We are re-invigorating our strategic plan to set 
forth a path focused on better supporting this essential mission; we 
have codified a new set of guiding principles for this effort: We will 
tell their story; we will preserve our heritage assets; and we will 
develop our cultural and historical resources. We will continue our 
emphasis on maintaining the highest standard for our memorials and 
cemeteries, while providing a first class visitor education experience 
at each of our sites.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
